U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Standing Akimbo, LLC v. United States, No. 20-645
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 6,
2020, and placed on the Court’s docket on November 12, 2020. The response of the United States
is now due, after one extension, on January 13, 2021. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including February 12, 2021, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0645
STANDING AKIMBO LLC, ET AL.
USA

JAMES DAVID THORBURN
THORBURN LAW GROUP LLC
5460 SOUTH QUEBEC ST.
SUITE 310
GREENWOOD VILLAGE, CO 80111
303-646-3482
JTHORBURN@THORBURNWALKER.COM

